                               CLOSEOUT FOR M97110045
         A program director of the Directorate for Biological sciences' informed OIG of
this allegation of misconduct in science on 19 November 1997. OIG met with the
program director and another scientist2about correspondence the scientist received fiom       .
a complainant.3 The complainant was apparently having difficulties obtaining data fiom
a colleagd whose research was fhded by NSF.

        OIG communicated with the complainant over the course of several months to
obtain more details on the specific data requested, the timing of the requests, and to
obtain information on any communications with the subject. In addition, OIG provided
copies of NSF's misconduct regulations and procedures. The complainant expressed
concern about the categorization of the actions as misconduct, and suggested that he
would contact the subject directly to try to obtain the information.

        Subsequently, OIG contacted the complainant to determine the status of his
requests for information fiom the subject. The complainant told OIG that his concerns
about data sharing had been addressed. He explained that the subject assigned a post-
doctoral researcher and doctoral student to work in cooperation with the complainant,
using the data at issue. In addition, he mentioned that a cooperative relationship had been
established, as evidenced by an invitation fiom the subject's University for him to be a
visiting professor. OIG decided that the subject had addressed the major concerns raised
by the complainant and there was no need for further inquiry to determine whether the
allegation had substance.

        This inquiry is closed and no M e r action will be taken on this case.


cc: Scientific Attorney, Integrity, I.G.
